PERFORMANCE AUDIT
OF THE


South Carolina Appalachian
Council of Governments

LDD Administrative Grants
Grant: SC-0709-C45
OIG Report Number: 13-27
GRANT PERIOD: JANUARY 1 – DECEMBER 31, 2012
Appalachian Regional Commission
1666 Connecticut Avenue, N.W.
Suite 700
Washington, DC 20009-1068

Mr. Hubert N. Sparks
Inspector General

Transmitted herewith is a report of Watkins Meegan LLC, a Performance Audit of the South Carolina Appalachian
Council of Governments LDD Administrative Grant SC-0709-C45. The report is in response to Contract No. BPA
11-01-B.




Tysons, Virginia
June 6, 2013
                 South Carolina Appalachian Council of Governments LDD Administrative Grant

                                                  SC-0709-C45




Background

The Appalachian Regional Commission (ARC) is a regional economic development agency that represents a
partnership of federal, state and local governments. Established by an act of Congress in 1965, ARC is composed
of the governors of the 13 Appalachian states and a federal co-chair, who is appointed by the President. Local
participation is provided through multi-county local development districts (LDDs). Each year, ARC provides
funding for several hundred projects in the Appalachian Region, in areas such as business development,
education and job training, telecommunications, infrastructure, community development, housing, and
transportation. These projects are intended to create new jobs; improve local water and sewer systems; increase
school readiness; expand access to health care; assist local communities with strategic planning; and provide
technical and managerial assistance to emerging businesses.

The South Carolina Appalachian Council of Governments (the LDD) was formed by the Generally Assembly of
the State of South Carolina in 1971. The purpose of the entity is to increase the capacity of local governments in
the Appalachian region of South Carolina to guide and promote the development of the region to optimize the
quality of life in the six counties of Anderson, Cherokee, Greenville, Oconee, Pickens and Spartanburg.

ARC awarded the LDD Administrative Grant, project number SC-0709-C45, to the LDD for the period from
January 1, 2012 to December 31, 2012. The Grant provided $179,000 of ARC (federal) funding and required
$179,000 of local (non-federal) matching funds for total funding of $358,000.

The Grant provides funding to help the LDD establish and expand economic development in the six-county ARC
region in South Carolina and to provide services that are deemed to be useful and pertinent to the
accomplishment of the objectives and purposes of the Appalachian Regional Development Act of 1965 (ARDA).
Funding covers personnel costs plus travel, equipment, supplies, contractual and other indirect type expenses.

Objective

Watkins Meegan LLC has been engaged to conduct a performance audit on the LDD Administrative Grant for the
period from January 1, 2012 to December 31, 2012. The purpose of our performance audit was to determine that:

       Funds expended and claimed for reimbursement from ARC were valid program expenses and in
        accordance with the ARC grant requirements;

       Internal controls were in place to ensure compliance with the grant requirements; and

       Goals and objectives of the grant had been achieved.

Executive Summary

Grant funds were used to fund the payroll and benefits of seven staff members who assisted with the
administration and support of the LDD ARC programs, and to pay related administrative and program expenses.
Staffing consisted of an Executive Director, Deputy Director Government Services Manager, Training Coordinator,
Grant Services Director, Senior Planner, Director of Information Services and an Economic Information Analyst.
Non-personnel costs included travel, meeting expenses and indirect expenses. The staff supported the program
in various areas including preparing and reviewing grant applications, program oversight including field visits to
ARC projects, attending regional meetings, providing training classes to local government entities, and working
with community agencies to expand economic development services in its service area.

                                                        1
                 South Carolina Appalachian Council of Governments LDD Administrative Grant

                                                  SC-0709-C45




Executive Summary (Continued)

ARC reimbursed $179,000 of expenses. Matching funds provided from non-federal sources totaled $180,219. In
general, based on our review of expenses, interviews with personnel, and review of selected documentation
supporting grant activities, the performance objectives of the grant were met.

Scope

We conducted a performance audit of the LDD Administrative Grant SC-0709-C45 at the LDD office from
March 25, 2013 through March 27, 2013, as described under this section and the audit methodology section. Our
review was based on the terms of the Grant agreement and on the application of procedures in the modified ARC
Audit Program.

We conducted this performance audit in accordance with Generally Accepted Government Auditing Standards
(GAGAS). Those standards require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our audit objectives.

Audit Methodology

Our procedures were based on Audit Program guidelines provided by the ARC Office of Inspector General and
included suggested procedures over the LDD’s accounting and internal control systems affecting the grant. We
met with the LDD Executive Director to discuss the overall structure of the LDD and processes around Grant
administration and monitoring. We also discussed and reviewed other financial and operational elements related
to the conduct of the project.

Our review of background material included ARC’s Grant agreement and related documentation, ARC Grant
approval, the Grant application and the LDD Audited Financial Statements for the Fiscal Year Ended June 30,
2012.

Our procedures included a review of controls in place for recording, accumulating, and reporting costs under the
Grant. We discussed with Management and certain staff whether the goals and objectives of the project funded
with ARC monies had been met. This included meeting with the Executive Director and other staff to understand
how their daily activities and responsibilities supported the administration of South Carolina’s ARC program. We
reviewed documentation related to Grant activities included in the LDD’s final report for consistency with
applicable performance measures.

Finally, we examined a sample of timesheets, payroll detail and related records for the staff whose employment
was supported by the ARC funds. We also inquired of key staff and reviewed supporting documentation (invoices,
vouchers, cost allocation reports, etc.) regarding the travel, equipment, supplies and indirect expenses that were
paid for by ARC funds to determine whether they were allowable costs, i.e., the expenses supported ARC staff
and project coordination. We evaluated payments and other activities for compliance with applicable Grant
requirements and federal regulations.




                                                        2
                 South Carolina Appalachian Council of Governments LDD Administrative Grant

                                                 SC-0709-C45




Results

Compliance with Grant Provisions

The ARC (federal) share and matching (non-federal) share of actual expenditures incurred, reported and
supported were $179,000 and $180,219, respectively, during the period under review. Total actual expenditures
were $359,219, approximately $1,219 more than the total ARC and matching budget of $358,000. We examined
supporting documentation for a sample of the costs incurred, and determined that in general the funds had been
expended in compliance with the Grant agreement.

The Grant funded the work of seven LDD personnel supporting Grant activities. Services included conducting
retreats and strategic planning sessions for government and community agencies; soliciting and assisting local
businesses and agencies with completion of ARC grant applications; and providing management and training
programs and other business development support within the South Carolina Appalachian counties. Based on our
interviews with LDD personnel, review of the LDD’s final report on Grant activities, and examination of selected
supporting documentation, the performance measures of the Grant were met.




                                                       3
                www.WatkinsMeegan.com

BETHESDA   ❘   ANNAPOLIS   ❘   TYSONS CORNER   ❘   HERNDON
